           Office of Inspector General




December 2, 2004

LAWRENCE K. JAMES
MANAGER, RIO GRANDE DISTRICT

SUBJECT: Audit Report – City Letter Carrier Operations – Rio Grande District
         (Report Number DR-AR-05-009)

This report presents the results of our self-initiated audit of City Letter Carrier
Operations in three delivery units in the Rio Grande District (Project Number
04YG021DR001). The overall objective was to assess the management of city letter
carrier operations.

Opportunities exist to improve the management of city letter carrier operations in the
Cresthaven, J. Frank Dobie, and University Park delivery units. Specifically:

   •   Delivery unit supervisors and managers did not adequately match workhours with
       workload. We projected the three delivery units had 5,318 unjustified hours at
       an estimated cost of $193,947 not supported by volume or workload over the
       five-month period, October 1, 2003, through February 29, 2004. We will report
       only 2,543 hours or $92,726 as unrecoverable costs.

   •   City letter carriers’ office work activities were not always appropriate to ensure
       that carriers departed the delivery unit as scheduled.

   •   Supervisors/managers did not effectively use the Delivery Operations Information
       System (DOIS) to manage daily operations.

   •   District officials had a route inspection process in place to maintain routes at
       eight hours; however, delivery unit supervisors or managers did not conduct
       required post route evaluation follow-up procedures.

   •   Delivery unit supervisors and managers did not consistently perform street
       management to monitor city letter carriers’ street time to correct negative trends.

   •   Delivery unit supervisors and managers did not effectively use the Managed
       Service Points (MSP) base information to monitor carrier street performance.


   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
   •   Supervisors or managers did not always properly document letter carriers
       unauthorized overtime occurrences and take appropriate corrective action.

We observed operations at the Lockhill Station and noted best practices regarding the
station’s integrated operating plan.

We recommended the Manager, Rio Grande District, direct Cresthaven, J. Frank Dobie,
and University Park delivery unit supervisors and managers to require carriers to
properly complete required forms, instruct the supervisors to only authorize time that
carriers request, and obtain and use correct time factors for approving and justifying
requests for additional time. In addition, require supervisors and managers to input
daily mail arrival times in DOIS, and improve communications with the processing and
distribution plant managers to ensure mail dispatches are timely. Furthermore, the
Manager, Rio Grande District, should direct supervisors and managers to use DOIS
leave times for carrier departures and direct carriers to clock out correctly when office
preparation activities are completed; and require supervisors and managers to fully
utilize DOIS in managing office activities and provide additional coaching as needed.

We also recommended the Manager, Rio Grande District, require the delivery unit
supervisors and managers scheduled for an upcoming route inspection to review the
Southwest Area’s Post Route Adjustment Guidelines on post evaluation follow-up
procedures and provide additional training to managers or supervisors in using MSPs
more effectively. Finally, the Manager, Rio Grande District, should require supervisors
and managers to consistently document unauthorized overtime on required forms and
take appropriate corrective action.

Management agreed with our findings and recommendations and has initiatives
completed and planned addressing the issues in this report. We discussed the
significant differences in unrecoverable costs with management. Management agreed
that the $193,947 identified by the OIG using the F2B Audit process was unjustified
cost. However, management stated that through their analysis only 2,543 hours or
$92,762 was unrecoverable. We will report only $92,726 as unrecoverable costs in our
Semiannual Report to Congress. Management’s comments and our evaluation of these
comments are included in this report.

The Office of Inspector General (OIG) considers recommendations 1, 2, 14, and 16
significant, and therefore requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective action(s) are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information please contact Debra Pettitt,
Director, Delivery and Retail, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment

cc: George L. Lopez
    Robert A. Larios
    Steven R. Phelps
City Letter Carrier Operations –                                           DR-AR-05-009
 Rio Grande District


                                   TABLE OF CONTENTS

 Executive Summary                                                          I

 Part I

 Introduction                                                               1

     Background                                                             1
     Objectives, Scope, and Methodology                                     4
     Prior Audit Coverage                                                   6

 Part II

 Audit Results                                                              8

      City Letter Carrier Operations                                        8
      Workhours to Workload Not Adequately Matched                          9
      Recommendations                                                      11
      Management’s Comments                                                12
      Evaluation of Management’s Comments                                  12

      Carriers’ Office Activities Delayed Route Starting Times             14
      Recommendations                                                      15
      Management’s Comments                                                15
      Evaluation of Management’s Comments                                  16

      Supervisors Did Not Effectively Use Delivery Information System to   17
       Manage Delivery Operations
      Recommendation                                                       18
      Management’s Comments                                                18
      Evaluation of Management’s Comments                                  18

      Post Route Evaluation Follow-up Procedures Not Completed to          19
       Maintain Routes at Eight Hours
      Recommendations                                                      21
      Management’s Comments                                                22
      Evaluation of Management’s Comments                                  22

      Street Observations Not Consistently Performed to Corrective         23
       Negative Trends
      Recommendation                                                       24
      Management’s Comments                                                24
      Evaluation of Management’s Comments                                  24
City Letter Carrier Operations –                                      DR-AR-05-009
 Rio Grande District



      Managed Service Points Data Not Always Properly Aligned         25
      Recommendations                                                 26
      Management’s Comments                                           26
      Evaluation of Management’s Comments                             27

      Unauthorized Time                                               28
      Recommendation                                                  29
      Management’s Comments                                           29
      Evaluation of Management’s Comments                             29

      Best Practices at Lockhill Station                              30

 Appendix A. Summary of 105 F2B Audits                                32

 Appendix B. Projection of F2B Audit Results over Five-Month Period   37

 Appendix C. Technical Documentation                                  39

 Appendix D. OIG Calculation of Unrecoverable Costs                   40

 Appendix E. Management’s Comments                                    41
City Letter Carrier Operations –                                                                  DR-AR-05-009
 Rio Grande District


                                     EXECUTIVE SUMMARY
    Introduction                   This report presents the results of our self-initiated audit of
                                   the city letter carrier operations in the Rio Grande District.
                                   The overall objective was to assess the management of city
                                   letter carrier operations.

    Results in Brief               Opportunities exist to improve the management of city letter
                                   carrier operations in the Cresthaven, J. Frank Dobie, and
                                   University Park delivery units. Specifically:

                                      •    Delivery unit supervisors and managers did not
                                           adequately match workhours with workload. As a
                                           result, we projected the three delivery units had
                                           5,318 unjustified hours at an estimated cost of
                                           $193,9471 not supported by volume or workload over
                                           the five-month period, October 1, 2003, through
                                           February 29, 2004. In addition, 2,543 of the
                                           unjustified hours or $92,726 are unrecoverable costs.

                                      •    City letter carriers’ office work activities were not
                                           always appropriate to ensure that carriers departed
                                           the delivery unit as scheduled.

                                      •    Supervisors and managers did not effectively use the
                                           Delivery Operations Information System (DOIS) to
                                           manage daily operations.

                                      •    District officials had a route inspection process in
                                           place to maintain routes at eight hours; however,
                                           delivery unit supervisors and managers did not
                                           conduct required post route evaluation follow-up
                                           procedures.

                                      •    Delivery unit supervisors and managers did not
                                           consistently perform street management to monitor
                                           city letter carriers’ street time to correct negative
                                           trends.




1
  Postal Service Finance memorandum dated March 5, 2004, shows the national average labor rate for city letter
carriers in FY 2004 was $36.47. The 5,318 hours multiplied by $36.47 equals $193,947 and the 2,543 hours times
the same rate is $92,726.




                                                        i
City Letter Carrier Operations –                                                         DR-AR-05-009
 Rio Grande District



                                      •   Delivery unit managers and supervisors did not
                                          consistently use the Managed Service Points base
                                          information to effectively monitor carrier street
                                          performance.

                                      •   Supervisors and managers did not always properly
                                          document letter carriers unauthorized overtime
                                          occurrences and take appropriate corrective action.

                                   Finally, we observed operations at the Lockhill Station and
                                   noted best practices regarding the station’s integrated
                                   operating plan.

 Summary of                        We recommended the Manager, Rio Grande District, direct
 Recommendations                   Cresthaven, J. Frank Dobie, and University Park delivery
                                   unit supervisors and managers to require carriers to
                                   properly complete required forms when workload or volume
                                   indicates that additional time for the route is needed. In
                                   addition, the Manager, Rio Grande District, should instruct
                                   the supervisors to only authorize time that carriers request,
                                   obtain and use correct time factors for approving and
                                   justifying requests for additional time, input daily mail arrival
                                   times in DOIS, and improve communications with
                                   the processing and distribution plant managers to ensure
                                   mail dispatches are timely. Furthermore, the Manager,
                                   Rio Grande District, should direct supervisors and
                                   managers to use daily leave times as established in DOIS
                                   for carrier departures and direct carriers to clock out
                                   correctly when office preparation activities are completed;
                                   and require supervisors and managers to fully utilize DOIS
                                   in managing office activities and provide additional coaching
                                   as needed.

                                   We also recommended the Manager, Rio Grande District,
                                   require the delivery unit supervisors and managers
                                   scheduled for an upcoming route inspection to review the
                                   Southwest Area’s Post Route Adjustment Guidelines on
                                   post evaluation follow-up procedures and provide additional
                                   training to managers or supervisors in using Managed
                                   Service Points more effectively. Finally, the Manager,
                                   Rio Grande District, should require supervisors and
                                   managers to consistently document unauthorized overtime
                                   on required forms and take appropriate corrective action.




                                                     ii
City Letter Carrier Operations –                                                      DR-AR-05-009
 Rio Grande District




 Summary of                        Management agreed with all the recommendations in the
 Management’s                      report. However, the Rio Grande District’s review of DOIS
 Comments                          for the period of review revealed a significant difference in
                                   unrecoverable costs when compared to those identified by
                                   audit. The OIG identified $193,947 in unrecoverable costs
                                   versus $92,762 identified by management through an
                                   analysis of the workhours projected by DOIS. Management
                                   stated their analysis was a complete composite of actual
                                   data and not a random sample. Management’s comments,
                                   in their entirety, are included in Appendix E of this report.

 Overall Evaluation of             Management’s comments are responsive to our findings
 Management’s                      and recommendations. We discussed the significant
 Comments                          difference in unrecoverable costs with management.
                                   Management agreed that the $193,947 identified by the OIG
                                   using the F2B Audit process was unjustified cost. However,
                                   management stated their analysis showed that only $92,762
                                   was unrecoverable. The difference between the two dollar
                                   amounts is not caused by use of a random sample. The
                                   difference is caused by the district’s use of the Total
                                   Variance Factor versus the F2B audit process. This
                                   process is an assessment of individual route time beyond
                                   eight hours and Postal Service (PS) Forms 3996, Carrier-
                                   Auxiliary Control. The Total Variance Factor in WebEIS
                                   shows the difference between the projected workhours for
                                   the workload identified in DOIS and the actual workhours
                                   used by the carriers. This factor incorporates a positive and
                                   negative variance that may occur in either the street or
                                   office function, which can offset routes exceeding
                                   eight hours or those that do not exceed eight hours,
                                   resulting in a zero total variance. Therefore, the result will
                                   always be lower than an audit of the justification and
                                   authorization of time beyond eight hours shown on PS
                                   Form 3996. The district did not review Forms 3996.
                                   Management indicated these forms are a compliance tool to
                                   change supervisors’ behavior and to enforce that carriers
                                   must submit accurate data on PS Forms 3996.

                                   Recognizing that the audit methodology includes some time
                                   that was undocumented via a PS Form 3996, although the
                                   time may have been needed, we agree that the
                                   unrecoverable cost is lower than the unjustified cost by an
                                   undetermined amount, and that our cost represents



                                                    iii
City Letter Carrier Operations –                                                     DR-AR-05-009
 Rio Grande District


                                   unjustified, rather than unrecoverable, costs. Therefore, we
                                   have changed the report to reflect $92,762 in unrecoverable
                                   costs, which we consider to be a minimum, based on the
                                   district's methodology.




                                                   iv
City Letter Carrier Operations –                                                               DR-AR-05-009
 Rio Grande District


                                              INTRODUCTION
 Background                        In fiscal year (FY) 2003, the Postal Service delivered over
                                   200 billion pieces of mail to more than 141 million business
                                   and household addresses nationwide using city and rural
                                   carriers, vehicles, and delivery support systems. The
                                   Delivery Operations Information System (DOIS), deployed
                                   in FY 2002, provides operational data to the delivery unit
                                   supervisors and managers to assist them in managing daily
                                   office activities and reduce costs. This data includes mail
                                   volume, mail arrival and dispatch times, and projected office
                                   and street hours for routes. DOIS replaced three systems
                                   and was designed to assist delivery unit supervisors in
                                   making sound business decisions related to carrier
                                   operations.

                                   As shown in Figure 1, delivery operations constitute
                                   43 percent of the workhours in the FY 2004 field-operating
                                   budget, which is mainly attributable to office and street
                                   workhours. Salary and benefits for rural and city carriers,
                                   totaled approximately $20 billion. Also, in the FY 2004 field
                                   budget, the Postal Service established a goal to reduce
                                   delivery workhours by 11.2 million.

                                    Figure 1. FY 2004 Field Budget Workhours
                                                                         43%




                                                                                          8%



                                                     24%

                                                                                    16%

                                                                    5%    4%

                                            Support, Controller, Disability and Consolidated Function
                                            Mail Processing
                                            Delivery
                                            Vehicle Services and Plant Maintenance
                                            Customer Service
                                            Field Administration




                                                           1
City Letter Carrier Operations –                                                      DR-AR-05-009
 Rio Grande District



                                   The Southwest Area consists of 711 delivery units in
                                   eight districts. The Southwest Area’s FY 2004 budget
                                   performance goal is to reduce delivery workhours by
                                   891,000. The Rio Grande District, with 194 delivery units,
                                   leads the Southwest Area in number of delivery units. As of
                                   February 2004, the Rio Grande District’s actual office
                                   workhours exceeded planned office hours by 105,898 and
                                   actual street hours exceeded planned street hours by 6,144.
                                   In August 2004, the district was 106,644 hours under city
                                   carrier operations’ planned hours.

                                   Each delivery unit’s mail volume, mail arrival and dispatch
                                   times, and office and street hours vary and are managed by
                                   the delivery unit supervisor or manager. In addition, routes
                                   in a city delivery unit have an established office and street
                                   time, usually eight hours, based on the last route inspection
                                   or review. One aspect of daily delivery unit operations is
                                   preparation and submission of Postal Service (PS)
                                   Form 3996, Carrier-Auxiliary Control, by city letter carriers
                                   requesting overtime or assistance on their routes to deliver
                                   that day’s mail. The supervisor reviews each request and
                                   either approves the additional time, decreases the time, or
                                   denies the carrier’s request. The supervisor makes this
                                   decision based on the daily workload or mail volume
                                   received in the delivery unit.

                                   Unauthorized and unjustified time is time worked that is not
                                   authorized by the manager/supervisor nor justified by the
                                   workload. For example, when a carrier requests 1 hour of
                                   additional time, but uses 1 hour and 30 minutes, the extra
                                   30 minutes is unauthorized time. Unjustified time is when
                                   the workload or volume does not support the hours used.
                                   Using the above example, if the carrier worked 1 hour and
                                   30 minutes of extra time, but the workload only supported
                                   30 minutes, the extra 1 hour would be classified as
                                   unjustified time. A carrier can have both unauthorized and
                                   unjustified time simultaneously.

                                   The Southwest Area employs an analytical review process
                                   in city delivery units known as “F2B Audits.” The area or
                                   district staff performs these reviews of the top “10 percent
                                   opportunity delivery units” or those with the most potential
                                   for improving their total efficiency. The objective of the
                                   reviews is to identify the amount of unauthorized and




                                                        2
City Letter Carrier Operations –                                                                       DR-AR-05-009
 Rio Grande District


                                    unjustified time in the delivery unit. The area and district
                                    staff judgmentally select one day of operation and perform a
                                    detailed review and analysis of delivery unit information.
                                    This information includes the DOIS Workload Status
                                    Reports,2 PS Forms 3996, Carrier - Auxiliary Control,3 and
                                    Carrier Control Workload Sheets.4

                                    The area or district staff analyzes each route to determine
                                    the following:

                                             •   The amount of time requested by the carrier for
                                                 the route.

                                             •   The amount of time approved by the supervisor
                                                 for the route.

                                             •   The total time used by the carrier on the route.

                                             •   The time unjustified and unauthorized.

                                             •   The justified time.

                                    Managed Service Points (MSP) is a computerized tool
                                    designed to monitor consistency of delivery time and
                                    enhance street management using mobile data collection
                                    devices. Letter carriers scan barcodes placed at service
                                    points reflecting key elements of the employee workday.
                                    Seven basic scan points are required:

                                        1.   Hot Case5
                                        2.   Depart to Route
                                        3.   First Delivery
                                        4.   Last Delivery Before Lunch
                                        5.   First Delivery After Lunch
                                        6.   Last Delivery
                                        7.   Return to Office



2
   Workload Status Reports provide management with data such as volume, parcel, and delivery point sequenced mail to make
effective decisions in matching workhours to workload.
3
  Carriers complete PS Form 3996 to request overtime or auxiliary assistance on their route for a day when they estimate the
route will exceed eight hours because of workload and volume.
4
  The Carrier Workload Control Sheet contains the base statistics for a route such as volume, deliveries, street factor, and
accountables as determined by the last route inspection.
5
  Hot case is a location within the delivery unit where missent mail from the processing plant is resorted and then given to the
assigned carrier.




                                                                3
City Letter Carrier Operations –                                                                         DR-AR-05-009
 Rio Grande District



                                    At the conclusion of each workday, the carrier downloads
                                    the MSP data collected in the mobile data collection device
                                    into DOIS. This MSP data is then compared to the MSP
                                    base information stored in DOIS to generate reports that
                                    could then be utilized by the supervisor to have a better
                                    understanding of the carrier’s street performance.

    Objectives, Scope,              Our overall objective was to assess the management of city
    and Methodology                 letter carrier operations. Specifically, we determined
                                    whether delivery supervisors and managers adequately
                                    matched workhours with workload, city letter carriers’ office
                                    work activities were appropriate to ensure that carriers
                                    departed the delivery unit as scheduled, and
                                    supervisors/managers effectively used the DOIS to assist in
                                    managing office activities. We also determined whether
                                    Postal Service officials adequately managed routes to
                                    maintain routes at eight hours, and delivery unit supervisors
                                    adequately performed street management to monitor city
                                    letter carriers street time to correct negative trends.

                                    Additionally, in response to interest expressed by Postal
                                    Service Headquarters management, we assessed whether
                                    delivery unit managers effectively used the MSP base
                                    information to monitor carrier street performance. Further,
                                    during the course of our audit, we became aware that
                                    supervisors did not always properly document letter carriers
                                    unauthorized overtime. Finally, we observed operations at
                                    the Lockhill Station, at the request of the District Manager,
                                    to identify recently implemented best practices.

                                    To accomplish our objectives, we judgmentally selected
                                    three average size delivery units with 15 or more regular city
                                    delivery routes in the Rio Grande District: Cresthaven
                                    Station with 30 routes; J. Frank Dobie Station with
                                    38 routes; and University Park Station with 32 routes.
                                    These units were also selected because they had office
                                    effectiveness scores of less than –156 and were equipped
                                    with DOIS. To determine whether delivery supervisors or
                                    managers adequately matched workhours with workload,
                                    we observed the delivery unit supervisors and station
                                    managers’ morning activities of measuring and recording
6
 Office effectiveness indicates a unit’s ability to meet its office workload projections based on current mail volumes and carrier
demonstrated performance. A negative result indicates that the delivery unit is working more hours than projected. The
accuracy of the workhours projection increases as the effectiveness metrics approaches zero.




                                                                 4
City Letter Carrier Operations –                                                     DR-AR-05-009
 Rio Grande District


                                   mail volume, reviewing Workload Status Reports, and
                                   assigning overtime. We also used the Southwest Area’s
                                   "F2B Audit” methodology to quantify the amount of
                                   unjustified time in the three delivery units. The quantified
                                   results were used to project the total unjustified time over
                                   the five-month period. (See Appendices A, B, and C). To
                                   determine if carriers’ office activities were appropriate to
                                   ensure they departed the delivery unit as scheduled, we
                                   observed the carriers performing their office duties. To
                                   determine if supervisors effectively used DOIS, we reviewed
                                   DOIS reports to determine if the units were utilizing the
                                   system to provide operational data in managing delivery
                                   operations.

                                   To determine if routes are maintained at eight hours, we
                                   reviewed the Rio Grande District process for selecting
                                   routes for inspection, post route evaluation follow-up
                                   procedures, and the results of route inspection adjustments
                                   at J. Frank Dobie and Cresthaven Stations. In addition, to
                                   determine if supervisors adequately performed street
                                   management to monitor city letters carriers’ street time, we
                                   reviewed DOIS to determine the number of street
                                   observations at each of the three delivery units.

                                   Finally, we reviewed the base MSP information for all routes
                                   at the three delivery units, judgmentally selected seven days
                                   at each delivery unit, and identified instances where a PS
                                   Form 1017-B, Unauthorized Overtime Record, was
                                   required.

                                   This audit was conducted from April through
                                   December 2004 in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls as were considered necessary under the
                                   circumstances. Although we relied on data obtained from
                                   Web Enabled Enterprise Information System (WebEIS),
                                   DOIS, and MSP, we did not test the validity of the data and
                                   controls over the systems. We discussed our observations
                                   and conclusions with appropriate management officials and
                                   included their comments where appropriate.




                                                        5
City Letter Carrier Operations –                                                       DR-AR-05-009
 Rio Grande District




 Prior Audit Coverage              The Office of Inspector General (OIG) has issued five audits
                                   related to our objectives.

                                   City Letter Carrier Office Preparation in the Dallas District
                                   (Report Number DR-AR-04-005, July 26, 2004). The report
                                   stated that opportunities exist to improve Dallas District city
                                   letter carrier office preparation operations. Specifically,
                                   impediments existed that adversely impacted delivery
                                   supervisors/managers’ ability to adequately match
                                   workhours with workload. In addition, city letter carriers’
                                   work activities were not always appropriate to ensure they
                                   departed the delivery unit as scheduled. Further,
                                   supervisors/managers did not use the DOIS to assist in
                                   managing office activities.

                                   City Letter Carrier Street Management and Route
                                   Inspections in the Fort Worth District (Report Number
                                   DR-AR-04-001, June 22, 2004). The report stated that
                                   street management and route inspections were generally
                                   efficient and effective at the Oakwood and Riverside
                                   Stations. Delivery unit supervisors monitored city delivery
                                   carrier’s street time to conserve workhours by performing at
                                   least the minimum number of required street observations.
                                   However, while a route inspection was conducted at the
                                   Oakwood Station delivery unit, post route adjustment
                                   procedures were not followed to maintain routes at
                                   eight hours. Management agreed with the finding and
                                   recommendation in the report.

                                   City Carrier Productivity – Letter Carrier Delays in the
                                   Baltimore District (Report Number TD-AR-03-011, July 28,
                                   2003). The report stated that early reporting wasted
                                   carriers’ morning time, and exposed the Baltimore District to
                                   potential unnecessary evening overtime costs. It was noted
                                   supervisors/managers were not using DOIS to manage
                                   carrier schedules, and consequently, could not use the
                                   system to evaluate carrier scheduling or take corrective
                                   action.




                                                         6
City Letter Carrier Operations –                                                     DR-AR-05-009
 Rio Grande District



                                   Delayed Letter Carrier Operations in the Capital Metro Area
                                   (Report Number TD-MA-02-005, August 29, 2002). The
                                   report stated that letter carriers in Northern Virginia and
                                   Baltimore, who were prepared to begin their delivery routes,
                                   were substantially delayed while waiting for “missent” mail,
                                   which processing and distribution centers had distributed to
                                   the wrong post office.

                                   Delivery Operations Information System (Report Number
                                   DA-AR-01-003, March 29, 2001). The report stated that the
                                   DOIS system did not fully address emerging Postal
                                   Service-wide business goals, such as the information
                                   platform, which affected and changed the original
                                   requirements.




                                                       7
City Letter Carrier Operations –                                                                    DR-AR-05-009
 Rio Grande District


                                                 AUDIT RESULTS
    City Letter Carrier            Opportunities exist to improve the management of city letter
    Operations                     carrier operations in the Cresthaven, J. Frank Dobie, and
                                   University Park delivery units. Specifically:

                                       •   Delivery unit supervisors and managers did not
                                           effectively match workhours with workload. As a
                                           result, we projected the three delivery units had
                                           5,318 unjustified hours at an estimated cost of
                                           $193,9477 that was not supported by volume or
                                           workload from October 1, 2003, through February 29,
                                           2004. In addition, 2,543 of the unjustified hours or
                                           $92,726 are unrecoverable costs. See Appendix D.

                                       •   City letter carriers’ office work activities were not
                                           always appropriate to ensure carriers departed the
                                           delivery unit as scheduled.

                                       •   Supervisors and managers did not consistently use
                                           the DOIS to effectively manage daily operations.

                                       •   District officials had a route inspection process in
                                           place to maintain routes at eight hours; however,
                                           delivery unit supervisors and managers did not
                                           conduct required post route evaluation follow-up
                                           procedures.

                                       •   Delivery unit supervisors and managers did not
                                           consistently perform street management to monitor
                                           city letter carriers’ street time to correct negative
                                           trends.

                                       •   Delivery unit supervisors and managers did not
                                           consistently use the MSP base information to
                                           effectively monitor carrier street performance.

                                       •   Supervisors and managers did not always properly
                                           document letter carriers unauthorized overtime
                                           occurrences and take appropriate corrective action.



7
 Postal Service Finance memorandum dated March 5, 2004, shows the national average labor rate for city letter carriers in
FY 2004 was $36.47. The 5,318 hours multiplied by $36.47 equals $193,947 and the 2,543 hours times the same rate is
$92,726..




                                                              8
City Letter Carrier Operations –                                                                     DR-AR-05-009
 Rio Grande District



                                   Finally, we noted best practices regarding the
                                   Lockhill Station’s integrated operating plan, one of
                                   two demonstration sites in the district.

 Workhours to                      Delivery supervisors/managers did not effectively match
 Workload Not                      workhours with workload. We projected the three delivery
 Adequately Matched                units had 5,318 unjustified hours at an estimated cost of
                                   $193,947 that was not supported by mail volume or
                                   workload from October 1, 2003, through February 29, 2004.
                                   This occurred because carriers did not always submit a
                                   PS Form 3996, Carrier-Auxiliary Control, or properly
                                   document their requests for additional time. In addition,
                                   supervisors either authorized time not requested by carriers
                                   or authorized time for factors other than those permitted,
                                   and mail dispatches arrived late from the processing plant.
                                   As result, the delivery units incurred unjustified office and
                                   street time. Although, the delivery units incurred unjustified
                                   time, we observed supervisors recording mail volume in
                                   accordance with standard operating procedures and
                                   managers assisting supervisors with carrier operation duties
                                   in order to match workhours with workload.

                                   Postal Service Handbook M-41, City Delivery Carrier Duties
                                   and Responsibilities, Section 131.41, as updated in
                                   April 2001, states that it is the carrier’s responsibility to
                                   complete items on PS Form 3996 if overtime or auxiliary
                                   assistance is authorized in the office or on the street.

                                   Management Instruction, PO-610-2000-1, dated December
                                   2000, states that effective day-to-day management of a
                                   delivery unit requires evaluation of the unit’s daily mail
                                   volume. Postal Service uses volume data on a daily basis to
                                   assess the workhours needed for any given day, including
                                   overtime and under time workload for the functional areas of
                                   delivery, manual distribution, and post office box distribution.

 Unjustified Time                  Expanding upon the Southwest Area’s ”F2B audit”
                                   methodology,8 we analyzed delivery unit information9 for
                                   35 days at each delivery unit and identified 1,517 unjustified


8
  We expanded the Southwest Area methodology to capture and analyze additional data to determine both office and street
unjustified time. The 35 days for each of the delivery units were randomly selected from days with overtime for the period
October 1, 2003, through February 29, 2004.
9
  DOIS Workload Status Reports, PS Forms 3996, and Carrier Control Workload Sheets.




                                                              9
City Letter Carrier Operations –                                                                      DR-AR-05-009
 Rio Grande District


                                   hours (48 percent) for the 3,145 total hours used over
                                   eight hours.

                                   We further categorized the 1,517 unjustified hours into
                                   845 office hours, 623 street hours, and 49 unexplained
                                   hours, as projected over the five-month period, October 1,
                                   2003, through February 29, 2004.

 PS Form 3996,                     Carriers did not always submit PS Form 3996 to request
 Carrier-Auxiliary                 additional time. Of the 105 days we reviewed, 29 percent
 Control                           (439 of 1,517) of the total unjustified hours were the result of
                                   carriers not submitting the required documentation.

                                   Carriers did not properly document their request for
                                   additional time on PS Form 3996. For example, carriers did
                                   not always provide detailed information for factors used to
                                   justify the additional time requested, such as the specific
                                   number of accountable mailpieces, time spent in meetings,
                                   number of minutes for street construction on the route, or
                                   request additional time even though they listed factors.10
                                   Postal Service Handbook M-41, City Delivery Carrier Duties
                                   and Responsibilities, Chapter 2, Section 28, as updated in
                                   April 2001, states that the carrier must show the reason
                                   for requesting assistance on their route in detail on the
                                   PS Form 3996.

 Supervisors                       Supervisors authorized time that was not requested by the
 Authorizing Additional            carrier on the PS Form 3996. For example, the supervisors
 Time                              approved time for volume, route cleanup, and construction
                                   even when a carrier did not request any time for these
                                   factors on PS Forms 3996. This occurred because Postal
                                   Service managers did not set clear expectations that
                                   delivery supervisors approve only time requested by the
                                   carrier.

                                   In addition, supervisors approved time for factors the
                                   Southwest Area does not use as justified reasons for
                                   additional time in its guidance. We noted that supervisors
                                   authorized time for route clean-up, refueling, change of
                                   address forms, unique mail, and more than one full



10
   Accountable mailpieces include Express Mail and certified mail packages the carrier must deliver and usually requires the
customer’s signature. Time spent in meetings includes safety talks, administrative meetings, and other meetings. Time for
street construction is additional time allowed to cover the route due to variations encountered on the route.




                                                              10
City Letter Carrier Operations –                                                                             DR-AR-05-009
 Rio Grande District


                                     coverage.11 This occurred because of uncertainty regarding
                                     factors approved by the Southwest Area and the delivery
                                     unit supervisors believed some of the factors used were
                                     unique to their location.

 Late Mail Arrival                   Late mail arrival dispatches with the daily volume from the
 Dispatches                          processing plant increased office time. Handbook M-39,
                                     Management of Delivery Services, Section 111.2, updated
                                     as of March 2004 states the delivery unit supervisor should
                                     determine any irregularity in the flow of mail between
                                     distribution and delivery, and interact with other unit
                                     managers to work towards correcting this irregularity.

                                     We reviewed the Dispatch Feedback Report for April 2004
                                     for the J. Frank Dobie Station, which showed that 5 of
                                     20 dispatches from the processing plant to this station were
                                     15 minutes late. Officials at the J. Frank Dobie Station
                                     stated they were concerned with late dispatches from the
                                     plant and had established an on-going dialogue with a
                                     processing and distribution center official to begin resolving
                                     this problem.

                                     At the University Park and Cresthaven Stations, we could
                                     not determine the number of late mail arrival dispatches on
                                     the Dispatch Feedback Report because supervisors did not
                                     enter 133 of 156 late mail arrival dispatch times into DOIS.
                                     By not entering the data into DOIS, management would not
                                     have sufficient data to begin discussions with processing
                                     and distribution center officials to improve mail flow.

                                     The delivery units incurred unjustified workhours in both the
                                     office and on the street because carriers did not submit
                                     required and complete documentation and supervisors
                                     approved time not justified by the workload and did not
                                     monitor late mail arrival dispatches.”

 Recommendations                     We recommend the Manager, Rio Grande District, direct
                                     station managers and supervisors to:

                                          1.     Require carriers to complete a Postal Service
                                                 Form 3996, Carrier-Auxiliary Control, when
                                                 workload or volume indicates the carrier will need

11
  Full coverage is the additional time granted to a city letter carrier to deliver mail on a particular day to all possible delivery
points on a route.




                                                                   11
City Letter Carrier Operations –                                                       DR-AR-05-009
 Rio Grande District


                                           additional time for the route and properly document
                                           the reasons for their request of additional time.

                                      2.   Instruct supervisors to only authorize time that is
                                           requested by carriers.

 Management’s                      Management agreed with our finding and recommendations
 Comments                          1 and 2. Training was provided for supervisors at
                                   Cresthaven, Dobie, and University Park on August 17,
                                   2004. In addition, a standup talk will be given to letter
                                   carriers in each of the audited units by November 30, 2004.

 Evaluation of                     Management’s comments are responsive to our finding and
 Management’s                      recommendations 1 and 2. Management’s actions taken or
 Comments                          planned should correct the issues identified in the finding.

 Recommendation                    We recommend the Manager, Rio Grande District, direct
                                   station managers and supervisors to:

                                      3.   Obtain the correct time factors for approving and
                                           justifying requests for additional time from
                                           Southwest Area officials.

 Management’s                      Management agreed with our finding and recommendation.
 Comments                          Unit Managers at Cresthaven, Dobie, and University Park
                                   will verify the Basic Route Information to include Begin
                                   Tours. Unit Mangers will re-create the Southwest Area
                                   Workload Control Sheet and ensure these factors are used
                                   in the daily assessment of workloads. This will be
                                   completed by November 30, 2004.

 Evaluation of                     Management’s comments are responsive to our finding and
 Management’s                      recommendation. Management’s action taken or planned
 Comments                          should correct the issues identified in the finding.

 Recommendations                   We recommend the Manager, Rio Grande District, direct
                                   station managers and supervisors to:

                                      4.   Input daily mail arrival times in DOIS, as required,
                                           and monitor timeliness of mail dispatches.

                                      5.   Communicate with the processing and distribution
                                           center managers to ensure mail dispatches are
                                           timely.




                                                        12
City Letter Carrier Operations –                                                      DR-AR-05-009
 Rio Grande District




 Management’s                      Management agreed with our finding and recommendations.
 Comments                          Unit Managers at Cresthaven, Dobie, and University Park
                                   will ensure that the daily mail arrival times are entered into
                                   DOIS as required by the morning standard operating
                                   procedures (AM SOP). Training will be completed by the
                                   December 31, 2004.

 Evaluation of                     Management’s comments are responsive to our findings and
 Management’s                      recommendations. Management’s actions taken or planned
 Comments                          should correct the issues identified in the finding.




                                                        13
City Letter Carrier Operations –                                                                             DR-AR-05-009
 Rio Grande District




 Carriers’ Office                     City letter carriers’ office activities were not appropriate to
 Activities Delayed                   ensure that carriers departed their delivery units as
 Route Starting Times                 scheduled because supervisors established uniform leave
                                      times, carriers clocked out for the street function incorrectly,
                                      and the location and arrangement of the Delivery Point
                                      Sequence (DPS) mail for the carriers’ routes were not
                                      organized. These issues contributed to 56 percent (845 of
                                      1,517) of unjustified office hours.

                                      We observed carriers at Cresthaven, University Park, and
                                      J. Frank Dobie Stations departing for street delivery
                                      according to a uniform leave time established by the
                                      supervisors and managers and not the DOIS projected time,
                                      which is based on the daily mail volume. DOIS provides
                                      estimated leave times on a daily basis. The supervisors did
                                      not post or communicate the required leaving times
                                      estimated in DOIS at the carriers’ cases. Handbook M-39,
                                      Management of Delivery Services, Section 111.2, updated
                                      March 2004, requires the delivery supervisor on a daily
                                      basis to determine if carriers reporting, leaving, returning,
                                      and ending times are consistent with established schedules.
                                      Also, the Delivery Operations Information System Quality
                                      Assessment, dated September 2002, states it is critical that
                                      supervisors use DOIS to manage daily unit operations.

                                      Carriers loaded mail in delivery vehicles while charging
                                      office time instead of street delivery time. At the Cresthaven
                                      and J. Frank Dobie Stations, we observed carriers loading
                                      mail into their vehicles before clocking out from office time to
                                      begin their street function because supervisors did not
                                      enforce correct clock out procedures. Handbook M-39,
                                      Management of Delivery Services, Section 125.1, updated
                                      March 2004 requires that after clocking out to street time,
                                      carriers should proceed directly to their vehicles and load
                                      the mail in an orderly fashion.

                                      The arrangements of the DPS mail for the carriers’ routes
                                      were not organized to facilitate quick retrieval from the
                                      managed mail tray.12 For example, at the J. Frank Dobie
                                      Station, DPS mail located in the central staging area was not
                                      organized by routes or in tray order. Carriers had to search
                                      for up to ten minutes to locate their individual trays before

12
     Managed mail trays are used to transport letter-size mail between selected Postal Service facilities.




                                                                  14
City Letter Carrier Operations –                                                          DR-AR-05-009
 Rio Grande District


                                   departing the delivery unit, increasing office time. Also,
                                   carriers carried DPS mail to their cases prior to completing
                                   manual mail casing to reduce the additional time needed to
                                   search for their DPS mail when they clocked out to begin the
                                   street function. Delivery supervisors and managers told us
                                   this problem existed prior to the OIG’s visit and they had
                                   discussed the unorganized DPS trays with processing and
                                   distribution center management. However, they could not
                                   provide any documentation of any discussions held prior to
                                   our visit.

                                   The Memorandum DPS Implementation Strategies, dated
                                   March 10, 1994, states that “once the DPS mail for a
                                   route(s) is taken directly to the street without casing; it
                                   should no longer be taken to the carrier’s case for staging.
                                   At that point, DPS mail should be staged in a location in the
                                   office that is efficient for the carrier(s) to pick up the mail on
                                   the way out of the office to the loading area.”

                                   Supervisors not using the estimated DOIS leave times,
                                   carriers clocking out incorrectly, and DPS mail not being
                                   arranged for quick retrieval, delayed carriers starting their
                                   scheduled routes and contributed to unjustified office time.

 Recommendations                   We recommend the Manager, Rio Grande District, direct
                                   station managers and supervisors to:

                                      6.    Use daily leave times as established in DOIS for
                                            carrier departures.

                                      7.    Direct carriers to correctly clock out when office
                                            preparation activities are completed and before
                                            street activities begin.

                                      8.    Require carriers to correctly retrieve Delivery Point
                                            Sequence mail after clocking out to the street.

 Management’s                      Management agreed with the finding and recommendations
 Comments                          6, 7, and 8. Management stated that DOIS and AM SOP
                                   training will be given by the end of quarter 1, FY 2005. Start
                                   times in each unit will be established with the Southwest
                                   Area requirement for consistent leave times.




                                                          15
City Letter Carrier Operations –                                                       DR-AR-05-009
 Rio Grande District




 Evaluation of                     Management’s comments are responsive to our findings and
 Management’s                      recommendations 6, 7, and 8. Management’s action taken
 Comments                          or planned should correct the issues identified in the finding.

 Recommendation                    We recommend the Manager, Rio Grande District, direct
                                   station managers and supervisors to:

                                      9.   Communicate with the processing and distribution
                                           center managers to ensure Delivery Point Sequence
                                           mail trays are organized for carriers to retrieve mail
                                           quickly.

 Management’s                      Management agreed with our finding and recommendation.
 Comments                          Delivery Point Sequence (DPS) mail trays should be
                                   organized for carriers to retrieve mail quickly. Presently,
                                   Dobie Station is receiving containerized DPS mail. The
                                   expansion to Cresthaven and University Park will be
                                   completed in FY 2005.

 Evaluation of                     Management’s comments are responsive to our
 Management’s                      recommendation. Management’s action taken or planned
 Comments                          should correct the issues identified in the finding.




                                                        16
City Letter Carrier Operations –                                                          DR-AR-05-009
 Rio Grande District




 Supervisors Did Not               Supervisors and managers did not consistently use the
 Effectively Use                   DOIS as a tool to provide operational data to assist in
 Delivery Information              managing office activities in all three delivery units.
 System to Manage                  Supervisors did not always use DOIS to make overtime
 Delivery Operations               assignments or review DOIS reports timely. This occurred
                                   because supervisors were not comfortable using this tool to
                                   make operational decisions. According to the Delivery
                                   Operations Information System Quality Assessment,
                                   September 9, 2002, it is critical that supervisors use DOIS
                                   to manage daily unit operations.

                                   Although supervisors received DOIS training in 2002, they
                                   told the OIG they were not comfortable in using the tool to
                                   manage daily office activities. Supervisors and managers
                                   did not always review the Workload Status and
                                   Route/Carrier Daily Performance Reports or the Managed
                                   Service Points Overview Reports. As illustrated in Table 1,
                                   supervisors were not using the operational delivery data
                                   available to manage their delivery units.

                                   Table 1. Supervisors DOIS Activity During 26 days in April 2004.
                                    Delivery Unit   Days             Days           Days MSP
                                                    Workload         Route/Carrier Overview
                                                    Status Report Daily             Report NOT
                                                    NOT viewed       Performance viewed
                                                    before 8 a.m.    Report NOT
                                                                     viewed
                                                                     before 8 a.m.
                                    University      25               21             26
                                    Park
                                    Cresthaven      15               10             21
                                    J. Frank Dobie 11                9              0

                                   Additionally, we reviewed supervisors’ DOIS activities on
                                   the April 2004 Route/Carrier Daily Performance Report.
                                   Our review identified 343 instances on this report where
                                   “unknown” was listed instead of the name of the carrier
                                   assigned to the route. This occurred 157 times at University
                                   Park, 114 at Cresthaven and 72 at J. Frank Dobie.
                                   According to the DOIS Quality Assessment, the carriers’
                                   names should be listed on this report to identify the carriers
                                   assigned to the routes. This incomplete report indicates
                                   that the supervisors were not using DOIS to update current
                                   route assignments.




                                                         17
City Letter Carrier Operations –                                                     DR-AR-05-009
 Rio Grande District


                                   Supervisors impact their ability to make effective decisions
                                   in matching workhours to workload by not reviewing
                                   operational and critical data such as mail volume, carrier
                                   performance and street delivery activities in DOIS. In
                                   addition, by not reviewing the data, supervisors may not
                                   take timely corrective action to address carrier performance
                                   issues.

 Recommendation                    We recommend the Manager, Rio Grande District:

                                      10. Provide additional training and coaching, as
                                          needed, to supervisors/managers in order to fully
                                          utilize DOIS in managing office activities.

 Management’s                      Management agreed with our finding and recommendation.
 Comments                          Management will complete training by quarter I, FY 2005.

 Evaluation of                     Management’s comments are responsive to our
 Management’s                      recommendation. Management’s action taken or planned
 Comments                          should correct the issue identified in the finding.




                                                       18
City Letter Carrier Operations –                                                                        DR-AR-05-009
 Rio Grande District




 Post Route                         Postal Service officials adequately managed the route
 Evaluation Follow-up               inspection process to maintain routes at eight hours.
 Procedures Not                     However, neither Cresthaven nor J. Frank Dobie delivery
 Completed to                       units completed their post route evaluation follow-up
 Maintain Routes at                 procedures because of supervisory staffing changes in both
 Eight Hours                        delivery units. Consequently, routes may not have been
                                    identified for minor adjustments or other corrective actions.

                                    The Rio Grande District has a process to identify units for
                                    route inspections that have the greatest opportunity for
                                    workhour savings. Units are identified based on an overall
                                    decline in mail volume with a corresponding decrease in
                                    caseable mail and an increase in the percentage of delivery
                                    point sequencing mail. A review of the process found that:

                                             •    During FY 2003, route inspections were
                                                  completed on over 1,150 of 3,015 routes,
                                                  resulting in an elimination of 55 routes or
                                                  443 daily workhour savings.

                                             •    During FY 2004, the district scheduled 1,708 of
                                                  2,959 routes for route inspections, with a goal of
                                                  eliminating 94 routes. Prior to a moratorium on
                                                  route inspections effective April 3, 2004,13 the
                                                  district completed route inspections on
                                                  1,109 routes, resulting in the elimination of
                                                  24 routes or 194 daily workhour savings.

                                    Postal Service Handbook M-39, Management of Delivery
                                    Services, Section 242.11, updated March 2004, requires the
                                    delivery unit to evaluate routes to determine if adjustments
                                    implemented have met their objective. In conjunction with
                                    Handbook M-39, the Southwest Area established Route
                                    Adjustment Follow-up Procedures, which require:

                                    An evaluation of each adjusted route for a minimum of
                                    30 days using the Evaluation of Performance worksheet.14


13
   The Postal Service and the National Association of Letter Carriers agreed to a moratorium on route inspections from April 3,
2004, to August 31, 2004. Discussions were ongoing at the time of our audit regarding issues on how to conduct a route
inspection.
14
   The Evaluation of Performance Worksheet is used on each adjusted route to track daily the total variances between the
carriers total projected (earned) and total actual (worked) workhours and street efficiency index for each route for a minimum of
30 days.




                                                                19
City Letter Carrier Operations –                                                        DR-AR-05-009
 Rio Grande District


                                   After the first 30 days of the evaluation process, a full street
                                   inspection and office count must be conducted, and the
                                   results of both will be reviewed with the carrier.

                                   These procedures are designed to identify routes with
                                   specific issues, workload/adjustment issues, or carrier
                                   performance issues, so that the manager can take
                                   corrective action to maintain routes at eight hours.

                                   To maintain routes at eight hours, route inspections were
                                   conducted at J. Frank Dobie and Cresthaven delivery units
                                   during FY 2003. All three delivery units are scheduled in
                                   FY 2005 for route inspections.

                                   The results of the J. Frank Dobie route inspection during
                                   FY 2003 identified a 5.26 daily workhour savings. To
                                   support route adjustments, supervisors could not provide
                                   the Evaluation of Performance worksheets that showed the
                                   adjusted routes had been evaluated for at least 30 days or
                                   that office counts had been performed at the end of the
                                   30 days. However, in reviewing DOIS, we found full street
                                   observations had been conducted on 20 of 21 adjusted
                                   routes within 60 days after the implementation. This
                                   suggested that the street inspections were accomplished as
                                   a part of the route adjustment follow-up process. Due to
                                   rotating station managers and the morning delivery
                                   supervisor being on detail at the time of implementation, no
                                   one was able to provide a clear description of the events
                                   after the implementation of the adjustments. Yet, the unit
                                   actually exceeded its projection by 6.15 daily workhours
                                   after the implementation of the route adjustments, which
                                   began in July 2003.

                                   Cresthaven’s route inspection during FY 2003 identified a
                                   7.43 daily workhour savings. However, the unit had not
                                   captured any of the workhour savings, and instead
                                   experienced an increase of 4.75 daily workhours. The
                                   Station Manager stated that employees who have medical
                                   limitations, part-time flexible employees learning their
                                   routes, and changes in supervisory staffing (both station
                                   managers and delivery unit supervisors) hampered the
                                   unit’s ability to capture any savings in hours. Further, the
                                   Station Manager stated that the post route adjustment
                                   follow-up procedures had not been completed because
                                   there was a transition in delivery unit management during




                                                        20
City Letter Carrier Operations –                                                      DR-AR-05-009
 Rio Grande District


                                   the implementation of adjustments in November 2003. The
                                   Station Manager, who returned from a detail on January 5,
                                   2004, also did not initiate the post route evaluation process
                                   because of the two-month lapse since the implementation of
                                   adjustments and other higher priorities.

                                   By not conducting the post route evaluation follow-up
                                   procedures, the Cresthaven unit missed an opportunity to
                                   identify potential issues, such as routes out of adjustment
                                   and carrier performance issues, preventing the station from
                                   capturing any of the predicted workhour reductions from the
                                   route inspection. However, district and unit officials stated
                                   the Cresthaven Station was challenged in achieving the full
                                   projected workhour savings because of the lack of a
                                   consistent management team and other staffing issues.

                                   Additionally, the Rio Grande District does not require
                                   delivery units to submit post route adjustment follow-up
                                   evaluations unless requesting additional adjustments.
                                   District management was unaware that both delivery units
                                   had not completed post route evaluations because neither
                                   had requested any additional adjustments.

                                   By not implementing the Southwest Area route adjustment
                                   follow-up procedures, supervisors may limit their ability to
                                   identify routes for minor adjustments or to take corrective
                                   action on routes with carrier performance issues to maintain
                                   routes at eight hours.

 Recommendations                   We recommend the Manager, Rio Grande District :

                                      11. Require station managers and delivery unit
                                          supervisors of units that are scheduled for an
                                          upcoming route inspection to review the Southwest
                                          Area Post Route Adjustment Guidelines to assist in
                                          maintaining routes at eight hours.

                                      12. Modify district procedures to require delivery units
                                          to submit completed post route evaluation packages
                                          to the district, even if there are no requests for
                                          additional adjustments.




                                                       21
City Letter Carrier Operations –                                                       DR-AR-05-009
 Rio Grande District




 Management’s                      Management agreed with our finding and recommendations
 Comments                          11 and 12. The Office of Delivery and Customer Service
                                   Programs will provide Southwest Area Post Route
                                   Adjustment Guidelines for units scheduled for upcoming
                                   route inspections. District subject matter experts will follow
                                   up to ensure compliance when adjustments are
                                   implemented.

 Evaluation of                     Management’s comments are responsive to our finding and
 Management’s                      recommendations. Management’s actions taken or planned
 Comments                          should correct the issues identified in the finding.




                                                        22
City Letter Carrier Operations –                                                      DR-AR-05-009
 Rio Grande District




 Street Observations               Delivery unit supervisors and managers did not consistently
 Not Consistently                  perform street management to monitor delivery letter
 Performed to                      carriers street time to correct negative trends at the
 Corrective Negative               Cresthaven, J. Frank Dobie, and University Park Stations.
 Trends                            Supervisors stated they were limited by staffing and other
                                   delivery unit duties that prevented them from performing
                                   street management.

                                   Postal Service Handbook, M-39, Management of Delivery
                                   Services, Section 134.12, updated March 2004, states that it
                                   is essential for the delivery supervisor to accompany
                                   carriers on the street to be aware of any conditions that
                                   affect delivery and/or carrier performance. Managers
                                   should act promptly to correct improper conditions.

                                   The Rio Grande District Street Management Policy,
                                   September 2000, states that all delivery offices must:

                                   •   Conduct street management (either a partial or full-day)
                                       and complete PS Form 3999, Inspection of Letter
                                       Carrier Route, on at least one-quarter of the unit’s
                                       routes monthly.

                                   •   Maintain a current PS Form 3999 for each route. The
                                       current form for each route should be less than
                                       one-year old.

                                   The three delivery unit managers conducted 5 of the
                                   minimum 150 street observations required from October 1,
                                   2003, through April 9, 2004. Additionally, managers of the
                                   three delivery units had not consistently conducted the
                                   required number of street observations each month during
                                   FY 2003. Further, University Park managers did not have
                                   current PS Form 3999 for 29 of its 32 routes.

                                   All three station managers stated a lack of a consistent
                                   delivery unit supervisor and station manager made it difficult
                                   to have an effective street management program. Although
                                   supervisors and managers at all three units wanted to
                                   spend more time on the street with their carriers, they stated
                                   they were limited by staffing and other delivery unit duties.

                                   Unit management staff must be knowledgeable of all factors
                                   that increase or decrease the carrier’s route base time. One



                                                        23
City Letter Carrier Operations –                                                      DR-AR-05-009
 Rio Grande District


                                   way to achieve this is to spend time on the street to identify
                                   negative trends including poor carrier work habits, issues
                                   with the line of travel and problems with the location of MSP
                                   scan points. This enables the supervisor and manager to
                                   properly approve and justify the carrier’s request for
                                   additional time on PS Form 3996, Carrier – Auxiliary
                                   Control.

                                   The District Manager stated the district’s major focus has
                                   been establishing the proper base for each route. The
                                   focus on reducing street time was limited. He also stated
                                   that the Southwest Area is currently drafting a street
                                   management policy to be issued in the near future.

 Recommendation                    We recommend the Manager, Rio Grande District, direct
                                   station managers and delivery unit supervisors to:

                                      13. Implement and enforce the Southwest Area Street
                                          Management Policy, when issued, to provide a
                                          consistent supervisory presence on the street to
                                          correct negative trends.

 Management’s                      Management agreed with our finding and recommendation.
 Comments                          The district will implement the area policy, dated May 2004,
                                   implementation will be completed during quarter 1, FY 2005.

 Evaluation of                     Management ‘s comments are responsive to our finding and
 Management’s                      recommendation. Management’s action taken or planned
 Comments                          should correct the issues identified in the finding.




                                                        24
City Letter Carrier Operations –                                                                             DR-AR-05-009
 Rio Grande District




 Managed Service                      Delivery unit managers did not consistently use MSP base
 Points Data Not                      information in DOIS to effectively monitor carrier street
 Always Properly                      performance. We reviewed the base MSP information for
 Aligned                              all routes at the three delivery units and identified 37 routes
                                      where office and street times were out of sequence or had
                                      variances between scheduled intervals that were
                                      excessive.15 University Park had 18, Cresthaven had
                                      10, and J. Frank Dobie had 9 routes that were out of
                                      sequence. Examples of the ‘out of sequence’ conditions
                                      included:

                                          •    Hot case and depart to route were the same times as
                                               the first delivery.

                                          •    Routes had lunch times lasting from 1 minute to
                                               12 hours and 35 minutes.

                                      Return to office time was before the last delivery.

                                      The out of sequence times were caused by supervisors not
                                      having a current PS Form 3999 or not using a current form
                                      to update the route pivot plan.16 Additionally, as stated
                                      earlier in our report, the three delivery unit managers did not
                                      consistently perform street observations, which would have
                                      produced current PS Forms 3999. However, even with a
                                      current PS Form 3999, the manager or supervisor must
                                      update the form and the pivot plan to reflect any changes to
                                      the route.

                                      Delivery unit management stated they needed additional
                                      training in MSP to use it more effectively. One supervisor
                                      stated that he was unaware that a route pivot plan needed
                                      to be updated when any changes occurred to the PS
                                      Form 3999, or that changes in the pivot plan directly
                                      affected the MSP base information. Additionally, he
                                      believed confusion existed among many supervisors
                                      regarding when to update MSP base information.

                                      In a July 2002 letter, the District Manager required delivery
                                      unit supervisors or managers to retrieve the MSP Overview
                                      Report daily to review any problems with the previous day’s
15
   Out of sequence occurs when the scheduled times for the route do not occur in chronological order.
16
   The route pivot plan is a detailed description of the route that the city delivery carrier should follow while delivering mail on the
street. The plan is used to assign segments of the route to other carriers when needed.




                                                                   25
City Letter Carrier Operations –                                                     DR-AR-05-009
 Rio Grande District


                                   scans and consult with carriers to correct identified
                                   problems. We reviewed 26 workdays in April 2004 and
                                   identified that J. Frank Dobie retrieved the MSP Overview
                                   Report each day; however, Cresthaven only reviewed the
                                   report on 5 of the days and University Park did not review
                                   the report on any of the 26 days. (See Table 1 under DOIS
                                   Section). Supervisors and managers stated that due to time
                                   constraints, they did not always view the daily MSP
                                   Overview Report.

                                   As a result of not reviewing the MSP Overview Report on a
                                   daily basis, supervisors and managers were unable to
                                   determine variances between the actual and scheduled
                                   times of MSP scan points that might identify carrier
                                   performance issues or identify inaccurate MSP base
                                   information.

                                   The District Manager stated the district’s major focus has
                                   been establishing the proper base for each route. The
                                   focus on reducing street time was limited. He also stated
                                   that the Southwest Area is currently drafting a street
                                   management policy to be issued in the near future.

 Recommendations                   We recommend the Manager, Rio Grande District:

                                      14. Provide additional training to station managers and
                                          supervisors in using MSP more effectively and
                                          require base information be updated when any
                                          changes are made to a route.

                                      15. Direct station managers and supervisors to comply
                                          with the Rio Grande District Letter, which requires
                                          daily review of the Managed Service Points
                                          Overview Report.

 Management’s                      Management agreed with our finding and recommendations
 Comments                          14 and 15. Management provided training to the three
                                   delivery unit managers. MSP scanning requirements will be
                                   included in the Street Management and DOIS Workshop.
                                   This training and the Delivery Symposium, that all managers
                                   are required to attend, will be completed by the end of
                                   quarter I, FY 2005.




                                                       26
City Letter Carrier Operations –                                                 DR-AR-05-009
 Rio Grande District




 Evaluation of                     Management’s comments are responsive to our finding and
 Management’s                      recommendations. Management’s action taken or planned
 Comments                          should correct the issues identified in the finding.




                                                     27
City Letter Carrier Operations –                                                      DR-AR-05-009
 Rio Grande District




 Unauthorized Time                 Supervisors and managers did not always properly
                                   document letter carriers’ unauthorized overtime
                                   occurrences. We judgmentally selected seven days at
                                   each delivery unit and identified 142 instances where a
                                   PS Form 1017-B, Unauthorized Overtime Record, was
                                   required and found only 11 instances where the form was
                                   completed to record unauthorized overtime. Although the
                                   11 PS Forms 1017-B recorded were all at Cresthaven, we
                                   noted in the remarks section of the form that the supervisor
                                   only recorded factors normally used as the reasons for
                                   approving overtime on PS Form 3996, Carrier Auxiliary
                                   Control.

                                   For example, if a carrier incurred two hours of overtime, but
                                   was authorized only one hour, the supervisor recorded on
                                   the Form 1017-B, full coverage and volume as the reasons
                                   for the 1 hour of unauthorized overtime, but did not record
                                   the discussion with the carrier regarding unauthorized time.

                                   The discussion between the supervisor and the carrier
                                   regarding the reasons for unauthorized overtime after
                                   returning from the route should have been documented in
                                   the remarks section of PS Form 1017-B by the supervisor.
                                   This occurred because the supervisor did not fully
                                   understand how to properly document the reasons on the
                                   form and completing this form was a lower priority in
                                   managing the delivery unit.

                                   Handbook F-401, Supervisors’ Guide to Scheduling and
                                   Premium Pay, Chapter, 5, Section F, August 2000, states
                                   employees are responsible for adhering to their assigned
                                   work schedules. A variance from the assigned work
                                   schedule will result in unauthorized overtime. Supervisors
                                   must document these occurrences on PS Form 1017-B,
                                   Unauthorized Overtime Record, and take appropriate
                                   corrective action.

                                   The District Manager stated the new version of DOIS will
                                   address some of the issues raised regarding the
                                   unauthorized overtime in the district and will include an
                                   automated Form 1017-B. The new version is scheduled for
                                   release in FY 2005.




                                                        28
City Letter Carrier Operations –                                                      DR-AR-05-009
 Rio Grande District



                                   As a result of not documenting unauthorized overtime,
                                   supervisors were not able to effectively consult and correct
                                   carrier performance issues to assist in managing overtime
                                   hours.

 Recommendation                    We recommend the Manager, Rio Grande District:

                                      16. Provide training to supervisors and managers to
                                          properly complete Postal Service Form 1017-B,
                                          Unauthorized Overtime Record, to document
                                          unauthorized overtime and take appropriate
                                          corrective action.

 Management’s                      Management agreed with our finding and recommendation.
 Comments                          Training was provided for supervisors for Cresthaven, Dobie
                                   and University Park on August 17, 2004. Compliance audits
                                   will be conducted by the District Operations staff.

 Evaluation of                     Management’s comments are responsive to our
 Management’s                      recommendations. Management’s action taken or planned
 Comments                          should correct the issues identified in the finding.




                                                       29
City Letter Carrier Operations –                                                        DR-AR-05-009
 Rio Grande District




 Best Practices at                 While performing our audit in the Rio Grande District, the
 Lockhill Station                  District Manager asked the OIG to observe operations at the
                                   Lockhill Station. Although Lockhill Station was not part of
                                   our audit of the Rio Grande District, we noted the delivery
                                   unit practices, processes, and approaches to delivery
                                   operations. The Lockhill Station, with about 49 routes,
                                   has served as one of two demonstration units for the
                                   Rio Grande District since January 31, 2004. This unit is
                                   unique within the Rio Grande District because of its
                                   integrated operating plan. The operating plan has
                                   three important components:

                                      •   Consistent mail dispatches to manage overtime and
                                          auxiliary assistance.

                                      •   Consistent mail collection to facilitate overnight mail
                                          processing.

                                      •   Emphasis on an organized, clean, and safe facility to
                                          improve the working environment.

                                   Consistent mail dispatches (called “1, 2, 3 play”) include
                                   three mail dispatches received early in the day representing
                                   specific mail types such as letters, flats, and DPS mail. For
                                   example, the first dispatch is “flat mail” received at the
                                   delivery unit at approximately 4:30 a.m. The second and
                                   third dispatch consists of caseable mail and DPS mail,
                                   respectively. These dispatches are received at 6:30 and
                                   8:30 a.m. With all of the caseable mail received by
                                   6:30 a.m., this allows the manager to manage overtime
                                   assignments and auxiliary assistance to be more efficient.
                                   On the day of our visit, we noted that DPS mail arrived
                                   25 minutes early and we noted the positive effect it had on
                                   carrier leave time. Carriers had time to prepare PS
                                   Form 3996, Carrier-Auxiliary Assistance, by the required
                                   posted time of 8:30 a.m. enabling supervisors to make
                                   timely decisions regarding overtime and auxiliary
                                   assistance.

                                   Consistent mail collection (called "1, 3, 5 play”) pertains to
                                   collection of mail from mailboxes and other deposit
                                   locations. The first collection is at 1 p.m., the second
                                   collection is at 3 p.m., and the third collection is at 5 p.m.
                                   The goal of this ”play” is to have all mail ready for



                                                        30
City Letter Carrier Operations –                                                     DR-AR-05-009
 Rio Grande District



                                   processing by 6 p.m. each night, contributing to the success
                                   of the next day’s 1, 2, 3 play.

                                   Lastly, Lockhill Station has placed an emphasis on the
                                   physical appearance of the delivery unit. Although the unit
                                   is at least 15 years old, it has an appearance of a much
                                   newer facility. This is due to a continuous effort to create
                                   and maintain an environment that is organized, clean, and
                                   safe. It is a long term approach that is more than a ‘clean
                                   up’ campaign; rather, it is a long term approach to improving
                                   the working environment. Lockhill’s goal is to continually
                                   strive to maintain a teamwork standard that translates into a
                                   competitive advantage.

                                   The Lockhill Station is one of two delivery units in the
                                   Rio Grande District to employ this unique operating plan.
                                   The Rio Grande District plans to expand this concept to
                                   other units within the district.




                                                       31
         City Letter Carrier Operations –                                                                                                                                                                                                    DR-AR-05-009
          Rio Grande District


                                       APPENDIX A. SUMMARY OF 105 F2B AUDITS




                                                                                                                                                                             Total Unjustified Time in Minutes
                                                                                                          No PS Form 3996 but travel time
                                                                            No PS Form 3996 but Greater




                                                                                                                                                                                                                                                                                                                Unexplained Unjustified Unit
                                                                                                                                              Total Time Used > 8 hrs Unit




                                                                                                                                                                                                                                                                                 Street Unjustified Time Unit
                                                                                                                                                                                                                                                 Office Unjustified Time Unit
                                                                                                                                                                                                                  Total Unjustified % Unit
                                                                            than 8 Hours
                      Delivery Unit




                                                              Day of Week




                                                                                                          authorized
Number




                                                                                                                                                                             for Unit
                                            Date




  1          Cresthaven               10/08/03     Wednesday                                    2                                2          2013                                    857                          43%                            356                             500                                        1
  2          Cresthaven               10/17/03     Friday                                       4                                2          1496                                    793                          53%                            348                             443                                        2
  3          Cresthaven               10/18/03     Saturday                                     6                               5            469                                    305                          65%                            292                              13                                        0
  4          Cresthaven               10/23/03     Thursday                                     0                                2           747                                    190                          25%                             75                             114                                        1
  5          Cresthaven               10/31/03     Friday                                       2                                3           396                                    177                          45%                             25                             151                                        1
  6          Cresthaven               11/05/03     Wednesday                                    2                                3          2148                                    882                          41%                            260                             620                                        2
  7          Cresthaven               11/06/03     Thursday                                     0                                1          3017                             1454                                48%                           1263                             186                                        5
  8          Cresthaven               11/15/03     Saturday                                     0                               4           2057                                    495                          24%                            490                                         5                              0
  9          Cresthaven               11/22/03     Saturday                                    6                                5           1963                             1414                                72%                           1120                             293                                        1
10           Cresthaven               12/03/03     Wednesday                                    2                                2          3429                             1359                                40%                            932                             426                                        1
11           Cresthaven               12/06/03     Saturday                                    1                                2           1194                                    542                          47%                            525                             14                                         3
12           Cresthaven               12/10/03     Wednesday                                    3                                1          1129                                    328                          29%                             96                             230                                        2
13           Cresthaven               12/11/03     Thursday                                     8                                5           800                                    282                          35%                            128                             154                                        0
14           Cresthaven               12/13/03     Saturday                                    3                                4            908                                    381                          42%                            284                              97                                        0
15           Cresthaven               12/16/03     Tuesday                                      2                                3          3268                             1450                                44%                            544                             904                                        2
16           Cresthaven               12/17/03     Wednesday                                    2                                4           981                                    353                          36%                            142                             211                                        0
17           Cresthaven               12/20/03     Saturday                                    5                                1            592                                    220                          37%                            201                              18                                        1
18           Cresthaven               12/22/03     Monday                                       4                                2          1967                                    588                          30%                            348                             239                                        1
19           Cresthaven               12/23/03     Tuesday                                      1                                1          2057                                    400                          19%                            153                             247                                        0
20           Cresthaven               12/24/03     Wednesday                                    3                                2           593                                    315                          53%                            315                                         0                              0
21           Cresthaven               12/26/03     Friday                                       3                                3          1078                                    414                          38%                            278                             134                                        2
22           Cresthaven               12/27/03     Saturday                                     4                               1            654                                    171                          26%                             94                              76                                        1
23           Cresthaven               12/30/03     Tuesday                                      5                                1          2272                                    700                          31%                            394                             302                                        4
24           Cresthaven               12/31/03     Wednesday                                    2                                1          1715                                    624                          36%                            230                             393                                        1
25           Cresthaven               01/08/04     Thursday                                     1                                2          1223                                    397                          32%                            331                              65                                        1
26           Cresthaven               01/09/04     Friday                                       9                                1          1125                                    682                          61%                            588                              92                                        2
27           Cresthaven               01/10/04     Saturday                                     1                               1            415                                    166                          40%                             79                              87                                        0
28           Cresthaven               01/12/04     Monday                                       3                                3           877                                    433                          49%                            278                             154                                        1
29           Cresthaven               01/14/04     Wednesday                                    3                                0          1835                                    566                          31%                            296                             269                                        1




                                                                                                                32
         City Letter Carrier Operations –                                                                                                                                                                                                    DR-AR-05-009
          Rio Grande District




                                                                                                                                                                             Total Unjustified Time in Minutes
                                                                                                          No PS Form 3996 but travel time
                                                                            No PS Form 3996 but Greater




                                                                                                                                                                                                                                                                                                                  Unexplained Unjustified Unit
                                                                                                                                              Total Time Used > 8 hrs Unit




                                                                                                                                                                                                                                                                                  Street Unjustified Time Unit
                                                                                                                                                                                                                                                 Office Unjustified Time Unit
                                                                                                                                                                                                                  Total Unjustified % Unit
                                                                            than 8 Hours
                      Delivery Unit




                                                              Day of Week




                                                                                                          authorized
Number




                                                                                                                                                                             for Unit
                                            Date




30           Cresthaven               01/16/04     Friday                                       4                                3          1563                                    599                          38%                            288                              311                                         0
31           Cresthaven               01/21/04     Wednesday                                    2                                2          3643                             1701                                47%                            932                             768                                          1
32           Cresthaven               02/07/04     Saturday                                    4                                2           1178                                    665                          56%                            346                             317                                          2
33           Cresthaven               02/18/04     Wednesday                                    0                                2          3118                             1885                                60%                           1308                             576                                          1
34           Cresthaven               02/23/04     Monday                                       2                                2           838                                    581                          69%                            497                               84                                         0
35           Cresthaven               02/24/04     Tuesday                                      2                                2          2327                             1036                                45%                            403                              629                                         4
                J. Frank
36                 Dobie              10/01/03     Wednesday                                    1                                4          1545                                    667                          43%                            192                              185                             290
                J. Frank
37                 Dobie              10/03/03     Friday                                       1                                2           660                                    359                          54%                            130                               25                             204
                J. Frank
38                 Dobie              10/08/03     Wednesday                                    0                                2          2816                             1264                                45%                            681                              581                                         2
                J. Frank
39                 Dobie              10/10/03     Friday                                       6                                7          2046                             1174                                57%                            144                             1029                                         1
                J. Frank
40                 Dobie              10/17/03     Friday                                       0                                2           645                                    267                          41%                             91                              117                              59
                J. Frank
41                 Dobie              10/28/03     Tuesday                                      2                                2          1670                                    684                          41%                            214                              411                             59
                J. Frank
42                 Dobie              10/30/03     Thursday                                     0                                2          1100                                    238                          22%                             57                              179                                         2
                J. Frank
43                 Dobie              10/31/03     Thursday                                     4                                1           811                                    501                          62%                            472                               23                                         6
                J. Frank
44                 Dobie              11/01/03     Saturday                                     0                                2          1436                                    469                          33%                            276                              155                             38
                J. Frank
45                 Dobie              11/04/03     Tuesday                                      0                                1          2780                                    938                          34%                            346                              539                             53
                J. Frank
46                 Dobie              11/13/03     Thursday                                     1                                1          2629                             1382                                53%                            738                              641                                         3
                J. Frank
47                 Dobie              11/25/03     Tuesday                                      0                                2          1373                                    517                          38%                            262                              220                             35
                J. Frank
48                 Dobie              12/03/03     Wednesday                                    0                                1          2398                                    883                          37%                            310                              408                             165
                J. Frank
49                 Dobie              12/04/03     Thursday                                     1                                2          1817                                    769                          42%                            399                              155                             215
                J. Frank
50                 Dobie              12/05/03     Friday                                       1                                3          2263                             1057                                47%                            422                              596                              39
                J. Frank
51                 Dobie              12/06/03     Saturday                                     3                                2           608                                    282                          46%                            172                               77                             33
                J. Frank
52                 Dobie              12/08/03     Monday                                       2                                3          2429                             1071                                44%                            684                              339                             48
                J. Frank
53                 Dobie              12/09/03     Tuesday                                      4                                3          1910                                    502                          26%                            227                              196                             79




                                                                                                                33
         City Letter Carrier Operations –                                                                                                                                                                                                    DR-AR-05-009
          Rio Grande District




                                                                                                                                                                             Total Unjustified Time in Minutes
                                                                                                          No PS Form 3996 but travel time
                                                                            No PS Form 3996 but Greater




                                                                                                                                                                                                                                                                                                                  Unexplained Unjustified Unit
                                                                                                                                              Total Time Used > 8 hrs Unit




                                                                                                                                                                                                                                                                                  Street Unjustified Time Unit
                                                                                                                                                                                                                                                 Office Unjustified Time Unit
                                                                                                                                                                                                                  Total Unjustified % Unit
                                                                            than 8 Hours
                      Delivery Unit




                                                              Day of Week




                                                                                                          authorized
Number




                                                                                                                                                                             for Unit
                                            Date




                J. Frank
54                 Dobie              12/20/03     Saturday                                     1                                6           933                                    509                          55%                            201                              146                             162
                J. Frank
55                 Dobie              12/23/03     Tuesday                                      1                                5          3204                             1099                                34%                            453                              580                             66
                J. Frank
56                 Dobie              12/24/03     Wednesday                                    2                                2          1212                                    681                          56%                            338                              329                              14
                J. Frank
57                 Dobie              12/27/03     Saturday                                     1                                1           400                                    217                          54%                            165                               21                             31
                J. Frank
58                 Dobie              01/07/04     Wednesday                                    1                                2          2346                             1209                                52%                            495                              436                             278
                J. Frank
59                 Dobie              01/15/04     Thursday                                     0                                1           818                                    340                          42%                            290                               50                                         0
                J. Frank
60                 Dobie              01/22/04     Thursday                                     1                                3          2966                             1486                                50%                            425                             1061                                         0
                J. Frank
61                 Dobie              01/23/04     Friday                                10                                      0          3204                             1960                                61%                            537                             1357                              66
                J. Frank
62                 Dobie              01/30/04     Friday                                       2                                6          1678                             1190                                71%                            728                              439                              23
                J. Frank
63                 Dobie              01/31/04     Saturday                                     1                                4          1107                                    753                          68%                            598                              154                                         1
                J. Frank
64                 Dobie              02/05/04     Thursday                                     0                                0          2150                             1217                                57%                            496                              718                                         3
                J. Frank
65                 Dobie              02/07/04     Saturday                                     1                                1          1923                                    964                          55%                            761                              200                                         3
                J. Frank
66                 Dobie              02/11/04     Wednesday                                    5                                3          3515                             1859                                53%                            794                              848                             217
                J. Frank
67                 Dobie              02/20/04     Thursday                                     2                                0          2050                             1129                                55%                            702                              323                             104
                J. Frank
68                 Dobie              02/23/04     Monday                                       1                                0          2866                             1416                                49%                            868                              482                              66
                J. Frank
69                 Dobie              02/24/04     Tuesday                                      3                                0          2520                             1397                                55%                            509                              680                             208
                J. Frank
70                 Dobie              02/25/04     Wednesday                                    5                                0          3083                             1622                                53%                            836                              558                             228
               University
71                  Park              10/06/03     Monday                                       1                                5          3455                             2990                                87%                           2360                              628                                         2
               University
72                  Park              10/14/03     Tuesday                                      2                                1          4207                             1840                                44%                           1198                              641                                         1
               University
73                  Park              10/18/03     Saturday                                     3                               0           1433                                    803                          56%                            693                              108                                         2
               University
74                  Park              10/22/03     Wednesday                                    5                                0          3134                             1599                                51%                           1205                              391                                         3
               University
75                  Park              10/27/03     Monday                                       2                                0          2698                             1552                                58%                            733                              817                                         2
76             University             11/01/03     Saturday                                     6                               1            770                                    502                          65%                            274                              226                                         2




                                                                                                                34
         City Letter Carrier Operations –                                                                                                                                                                                                    DR-AR-05-009
          Rio Grande District




                                                                                                                                                                             Total Unjustified Time in Minutes
                                                                                                          No PS Form 3996 but travel time
                                                                            No PS Form 3996 but Greater




                                                                                                                                                                                                                                                                                                                 Unexplained Unjustified Unit
                                                                                                                                              Total Time Used > 8 hrs Unit




                                                                                                                                                                                                                                                                                  Street Unjustified Time Unit
                                                                                                                                                                                                                                                 Office Unjustified Time Unit
                                                                                                                                                                                                                  Total Unjustified % Unit
                                                                            than 8 Hours
                      Delivery Unit




                                                              Day of Week




                                                                                                          authorized
Number




                                                                                                                                                                             for Unit
                                            Date




                    Park
               University
77                  Park              11/04/03     Tuesday                                      1                                5          3385                             1826                                54%                           1103                              718                                        5
               University
78                  Park              11/08/03     Saturday                                     0                                0          3455                             1592                                46%                           1059                              531                                        2
               University
79                  Park              11/10/03     Monday                                       1                                0          4321                             2276                                53%                           1273                             1003                                        0
               University
80                  Park              11/19/03     Wednesday                                    1                                1          2341                             1034                                44%                            775                              257                                        2
               University
81                  Park              11/25/03     Tuesday                                      0                                1          2285                             1070                                47%                            750                              318                                        2
               University
82                  Park              12/02/03     Tuesday                                      0                                2          2718                             1303                                48%                            774                              526                                        3
               University
83                  Park              12/05/03     Friday                                       0                                3          1643                             1044                                64%                            382                              659                                        3
               University
84                  Park              12/10/03     Wednesday                                    8                                4          2374                             1035                                44%                            215                              818                                        2
               University
85                  Park              12/13/03     Saturday                                     2                               2            635                                    283                          45%                            243                               40                                        0
               University
86                  Park              12/16/03     Tuesday                                      3                                3          2372                             1137                                48%                            649                              486                                        2
               University
87                  Park              12/19/03     Friday                                       0                                2           109                                             16                  15%                             16                                           0                             0
               University
88                  Park              12/23/03     Tuesday                                      4                                0          2021                                    968                          48%                            615                              350                                        3
               University
89                  Park              12/26/03     Friday                                       1                                0           142                                             80                  56%                                         9                    71                                        0
               University
90                  Park              12/30/03     Tuesday                                      2                                0          1560                                    842                          54%                            537                              303                                        2
               University
91                  Park              01/05/04     Monday                                       2                                2          1649                                    673                          41%                            546                              127                                        0
               University
92                  Park              01/08/04     Thursday                                     3                                2           284                                    168                          59%                            108                               59                                        1
               University
93                  Park              01/15/04     Thursday                                     4                                2          1046                                    574                          55%                            170                              402                                        2
               University
94                  Park              01/23/04     Friday                                       2                                3          1508                                    886                          59%                            800                               81                                        5
               University
95                  Park              01/26/04     Monday                                       7                                1          1489                                    713                          48%                            610                              101                                        2
               University
96                  Park              01/28/04     Wednesday                                    2                                2          2400                             1392                                58%                            653                              736                                        3
               University
97                  Park              01/30/04     Friday                                       1                                6          1213                                    616                          51%                            385                              228                                        3
               University
98                  Park              02/04/04     Wednesday                                    1                                3          2140                             1195                                56%                            824                              370                                        1




                                                                                                                35
           City Letter Carrier Operations –                                                                                                                                                                                                       DR-AR-05-009
            Rio Grande District




                                                                                                                                                                                  Total Unjustified Time in Minutes
                                                                                                            No PS Form 3996 but travel time
                                                                              No PS Form 3996 but Greater




                                                                                                                                                                                                                                                                                                                         Unexplained Unjustified Unit
                                                                                                                                                  Total Time Used > 8 hrs Unit




                                                                                                                                                                                                                                                                                        Street Unjustified Time Unit
                                                                                                                                                                                                                                                      Office Unjustified Time Unit
                                                                                                                                                                                                                       Total Unjustified % Unit
                                                                              than 8 Hours
                        Delivery Unit




                                                                Day of Week




                                                                                                            authorized
  Number




                                                                                                                                                                                  for Unit
                                              Date




                 University
  99                  Park              02/10/04     Tuesday                                      1                                2           2361                              1467                                 56%                            625                              839                                           3
                 University
 100                  Park              02/12/04     Thursday                                     0                                1             54                                               46                  85%                             46                                            0                               0
                 University
 101                  Park              02/13/04     Friday                                       4                                3           1799                              1070                                 59%                            448                              621                                           1
                 University
 102                  Park              02/14/04     Saturday                                     9                               2            1219                                      783                          64%                            238                              545                                           0
                 University
 103                  Park              02/17/04     Tuesday                                      2                                2           3237                              1730                                 53%                            859                              868                                           3
                 University
 104                  Park              02/20/04     Friday                                       2                                4            908                                      370                          41%                            226                              143                                           1
                 University
 105                  Park              02/21/04     Saturday                                     3                                2            361                                              58                   16%                             49                                            5                               4
                  TOTALS                                                            249                           223                         188722                             91010                                48%                          50702                             37396                             2912
Total Unjustified Minutes of 91,010 / 60 minutes = 1,517 Total Unjustified Hours




                                                                                                                  36
City Letter Carrier Operations –                                                           DR-AR-05-009
 Rio Grande District


                            APPENDIX B
      PROJECTION OF F2B AUDIT RESULTS OVER FIVE-MONTH PERIOD
                                                                                               Projected
                                                                                               Hours not
                                                                                              justified by
                                   Projection of    95 Percent    95 Percent                 work load in
                                    Total Time      Confidence    Confidence                  five month
                                       (point         interval      interval                     period
                                     estimate)     lower bound   upper bound    Relative     (Oct. 2003 –
             Measure                in Minutes      in Minutes    in Minutes   Precision       Feb. 2004)
                                                   UNIVERSITY PARK
      Unit Unjustified Time,
      Total Minutes                     124,768        101,765       147,771       18.4%         2079
      Unit percentage
      Unjustified Time                   53.1%          49.6%         56.7%
      Unit Unjustified Office
      Minutes                            75,346         59,152        91,541       21.5%
      Unit Unjustified Street
      Minutes                            49,186         39,023        59,348       20.7%
      Unit Unexplained
      Unjustified Minutes                   235            189          282        19.6%
                                                    J. FRANK DOBIE
      Unit Unjustified Time,
      Total Minutes                     112,710         96,449       128,972       14.4%         1879
      Unit percentage
      Unjustified Time                   48.1%          45.0%         51.2%
      Unit Unjustified Office
      Minutes                            52,760         44,606        60,914       15.5%
      Unit Unjustified Street
      Minutes                            50,107         38,978        61,236       22.2%
      Unit Unexplained
      Unjustified Minutes                 9,843          6,771        12,916       31.2%
                                                     CRESTHAVEN
      Unit Unjustified Time,
      Total Minutes                      81,583         65,812        97,354       19.3%         1360
      Unit percentage
      Unjustified Time                   42.5%          38.6%         46.3%
      Unit Unjustified Office
      Minutes                            49,633         38,424        60,842       22.6%
      Unit Unjustified Street
      Minutes                            31,797         24,021        39,573       24.5%
      Unit Unexplained
      Unjustified Minutes                   153            111          196        27.5%




                                                          37
City Letter Carrier Operations –                                                       DR-AR-05-009
 Rio Grande District




                                                SUMMARY FOR 3 UNITS
                                                   Total Time
                                                    (sum of                  Fraction of
                                                  three point                   Total
                                                  estimate) in Total Time    Unjustified
                              Measure               Minutes     in Hours        Time

                       Total Unjustified Time         319,061        5,318
                       Office Unjustified
                       Time                           177,739        2,962          56%
                       Street Unjustified
                       Time                           131,090        2,185          41%
                       Unexplained
                       Unjustified Time                10,231         171            3%




                                                         38
City Letter Carrier Operations –                                                  DR-AR-05-009
 Rio Grande District


                        APPENDIX C. TECHNICAL DOCUMENTATION

Sampling

An objective of the audit was to quantify the amount of unjustified time in three delivery units. In
support of this, the audit team employed a cluster sample of carrier time selecting delivery days
as the clusters. The sample design allows statistical projection of the minutes of unjustified time
total, unjustified office time, unjustified street time, and unexplained unjustified time and of the
fraction of time over eight hours that is unjustified. Individual projections by carrier route are
also available to support route performance reviews but are not included in this summary.

Audit Universe

The team judgmentally selected three delivery units in the Rio Grande District.
For University Park and J. F. Dobie Stations, the audit universe consisted of 123 days. For
Cresthaven Station the universe was 122 days, because there was one day for which the DOIS
information was not available because of a system failure. We did not find indication of other
such days, so we reduced the universe directly rather than making subpopulation adjustments
to the results.

Sample Design and Modifications

We chose a cluster sample design, with simple random selection of delivery days at the
first stage. Because we were using a cluster sample in which all elements (i.e., routes) are
examined at the second stage, we were not concerned with variability within clusters (i.e.,
variability between routes on a given day). However, we had no information regarding the
variability we might see between days. We selected a desired confidence level of 95 percent
and, for sample size calculation purposes, a desired relative precision for a variable estimate of
15 percent. We considered coefficient of variation (CV) values of 50 percent and 100 percent.
With application of the finite population correction, these CVs generated sample sizes of 33 and
75, respectively. We decided to use a stop-or-go sampling approach with a sample size of
35 as a first test point: if we were not satisfied with the achieved precision for the unit unjustified
time (total) from 35 days of data (clusters) we would increase the sample to as many as
75 days. We considered relative precision around 20 percent for the unit unjustified time (total)
measure to be acceptable.




                                                  39
City Letter Carrier Operations –                                                                     DR-AR-05-009
 Rio Grande District


                                    APPENDIX D
                     OIG CALCULATION OF UNRECOVERABLE COSTS


As shown in the table below, the OIG identified $193,94717 in unjustified costs. OIG calculated
the unjustified costs through a random sample analysis of PS Form 3996, Carrier Auxiliary
Control. Rio Grande District management responded that only $92,76218 of the unjustified costs
OIG identified was unrecoverable. The district calculated its costs using the Total Variance
Factor in WebEIS, which shows the difference between the projected workhours for the
workload identified in DOIS and the actual workhours used by the carriers. The difference
between OIG’s calculation and management’s calculation is not caused by the use of a random
sample. The difference in workhours is the district’s use of the Total Variance Factor and not
the F2B audit process. The F2B audit process is an assessment of individual route time over
eight hours shown on PS Forms 3996.




                                            Workhours              Labor Rate              Cost
                    Unjustified              5,318.00                $36.47             $193,947.00
                    workhours
                    identified by
                    the OIG using
                    the Southwest
                    Area F2B
                    Audit Process
                    Unrecoverable             2,543.52                $36.47             $92,762.17
                    workhours
                    identified by
                    Rio Grande
                    District using
                    Total Variance
                    in WebEIS
                    Difference                2,774.48                $36.47           $101,184.83




17
   Postal Service Finance memorandum dated March 5, 2004, shows the national average labor rate for city letter carriers in
FY 2004 was $36.47. The 5,318 hours multiplied by $36.47 equals $193,947.
18
   Postal Service Finance memorandum dated March 5, 2004, shows the national average labor rate for city letter carriers in
FY 2004 was $36.47. The 2,543.52 hours multiplied by $36.47 equals $92,762.17.




                                                              40
City Letter Carrier Operations –                                DR-AR-05-009
 Rio Grande District


                                   APPENDIX E. MANAGEMENT’S COMMENTS




                                              41
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   42
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   43
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   44
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   45
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   46
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   47
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   48
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   49
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   50
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   51
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   52
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   53
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   54
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   55
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   56
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   57
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   58
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   59
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   60
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   61
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   62
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   63
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   64
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   65
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   66
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   67
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   68
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   69
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   70
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   71
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   72
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   73
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   74
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   75
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   76
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   77
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   78
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   79
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   80
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   81
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   82
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   83
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   84
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   85
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   86
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   87
City Letter Carrier Operations –        DR-AR-05-009
 Rio Grande District




                                   88
